V
'I.

No.

W' 132*1

IN THE
SUPREME COURT OF THE STATE OF THE UNITED STATES

Mary Strong,
Petitioner, ffrdi
V1
J

U.S. BANK TRUST, N.A., AS TRUSTEE
FOR LSF9 MASTER PARTICIPATION TRUST
Respondents

FILED
MAY 1 5 2020
supreEm°FcTourt.LuRsK

On Petition For Writ of Certiorari
To The Oregon Supreme Court

PETITION FOR WRIT OF CERTIORARI

Mary Strong, Petitioner pro se
2559 NW Monterey Pines Drive
Bend, Oregon 97703
541-728-7905
marvstrong@bendbroadband.com

l

RECEIVED
MAY 2 0 2020

1

QUESTIONS PRESENTED
Did The Trial And Appellate Courts Err:
1. Fundamentally ruling that Plaintiffs) can fabricate, forge and
for all intents and purposes “steal” a mortgage “Note” and
“Deed of Trust” with no evidence of payment or possession of
the original mortgage Note and Deed of Trust, and still be
entitled to foreclose.
2. Failure and refusal to acknowledge, accept, permit, record and
document testimony and evidence presented by Mary Strong
and witnesses for Mary Strong of the cumulative rejection of
over $197,000.00 in mortgage payments made by Mary Strong,
and that US Bank Trust et al does not possess the original
Note, nor does US Bank Trust, N.A. et al have evidence of any
amount paid for the Mortgage Note and Deed of trust or legal
standing whatsoever regarding the subject property at 2559
NW Monterey Pines Drive, Bend, Oregon, as required by law.
3. Failure to recognize, acknowledge, document and record for the
record the ongoing illegal chain of fraudulent, “robo-signed” and
forged “assignments” of the subject Mortgage Note prior to and
including the alleged “assignment” to U.S. Bank Trust, N.A. et
al for the property at 2559 NW Monterey Pines Drive, Bend,
Oregon and documented by Mary Strong in this matter.

2

4. Failure to recognize and properly rule that Plaintiff and
“assignee” US Bank Trust, N.A., et al, their predecessors,
“assignors” and related parties are in violation of the Oregon
Trust Deed Act which, among other elements, requires
demonstration of the possession of the original mortgage note,
and demonstration of evidence of payment for that note.
5. Failure and refusal of the Deschutes County Circuit Court to
accept and admit into evidence the forensic examination and
proof that Plaintiffs U.S. Bank Trust et al do not have
possession of the original Mortgage Note, with legal (not
fraudulent “robo signed”) allonges demonstrating unbroken and
legal chain of title, and documented evidence of payment by
U.S. Bank Trust, N.A., et al. for the Mortgage Note and Deed of
Trust for the property at 2559 NW Monterey Pines Drive,
Bend, Oregon as required bv law.
6. Is it lawful for various “servicers” (Nationstar and Caliber
Home Loans) to repeatedly reject mortgage payments exceeding
$197,377.00 from August 22, 2013 to April 18, 2018?
7. Is it lawful for a mortgage “holder” claiming rights to the
mortgage loan to make such claim without holding the original
Note?
8. Is it lawful for a party claiming to be the mortgage “holder” to
foreclose on a mortgage without demonstration of clean and
clear chain of title and legal standing regarding the mortgage
3

note? (See ORS92.465re Fraud and deceit, and Brandrup v.
Recontrust Company Bac Lp 20062CB)
9. Is it lawful that Mary Strong was required to pay over
$10,000.00 in “costs” and Plaintiff U.S. BANK TRUST, N.A.
“attorney fees” in order to redeem her property pursuant to the
Sheriffs Sale following the unlawful foreclosure and eviction in
this matter?
li

PARTIES TO THE PROCEEDING
Plaintiff U.S. BANK TRUST, N.A., AS TRUSTEE FOR LSF9
MASTER PARTICIPATION TRUST v. Mary Strong, DefendantAppellant, pro se, Deschutes County Circuit Court No.
16CV32768, Oregon Court of Appeals No. A170560, and Supreme
Court of The State of Oregon# S067444.
RELATED CASES
• SUPREME COURT OF THE STATE OF OREGON Case No.
S067444, and Oregon Court of Appeals Case No. A170560 Re
U.S. BANK TRUST N.A. AS TRUSTEE FOR LSF9 MASTER
PARTICIPATION TRUST v. MARY STRONG. See APP.8
attached here.
• DESCHUTES COUNTY CIRCUIT COURT Case No.
16CV31768 Re U.S. BANK TRUST N.A. AS TRUSTEE FOR
LSF9 MASTER PARTICIPATION TRUST v. MARY STRONG.
See APP. 4. APP, 5 and APP.6 attached here.
• NINTH CIRCUIT COURT OF APPEALS FOR THE NINTH
DISTRICT, Case No. 16-35862, D.C. Nos. 6:i6-cv-01498-MC
4

and 6‘16-cv-01499-MC RE MARY STRONG v. FEDERAL
HOME LOAN MORTGAGE CORPORATION, AKA Freddie
Mac, as trustee for securitized trust Freddie Mac Multiclass
certificates series 2998, et al. See APP.2 attached here.
o “We vacate the judgment as to Strong’s ‘lack of standing
to foreclose.” quiet title, slander of title, and related
declaratory relief claims and remand for further
proceedings in light of Brandrup”.
o NINTH CIRCUIT COURT OF APPEALS Case No 1835086, Related Case Number* 16-35862, United States
District Court Consolidated Case Nos. 6-16-cv-01498-MC
and 6:l6-cv-01499-MC, MARY STRONG PlaintiffAppellant vs LEHMAN BROTHERS BANK, FSB;
NATIONSTAR MORTGAGE LLC.; FEDERAL HOME
LOAN MORTGAGE CORPORATION AS TRUSTEE FOR
SECURITIZED TRUST FREDDIE MAC MULTICLASS
CERTIFICATES, SERIES 2998; FREDDIE MAC;
AURORA COMMERCIAL CORP.; NATIONSTAR
MORTGAGE LLC; CALIBER HOME LOANS;
MORTGAGE ELECTRONIC REGISTRATION SYSTEM,
AKA “MERS” AND DOES 1 THROUGH 100,
INCLUSIVE, Defendants.

5

Ill

TABLE OF CONTENTS
Page
QUESTION PRESENTED.............................
2
PARTIES TO THE PROCEEDING.............
4
4
RELATED CASES.........................................
6
TABLE OF CONTENTS...............................
TABLE OF AUTHORITIES..........................
7
PETITION FOR A WRIT OF CERTIORARI
9
9
OPINIONS BELOW......................................
JURISDICTION............................................
10
STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED...10
INTRODUCTION AND STATEMENT OF THE CASE
11
REASONS FOR GRANTING THE PETITION.................
11
12
I.
Elements required by law...........................................
14
II. Statement of The Case, Nature of The Judgement..
15
III. Basis of Appellate Jurisdiction..................................
IV. Effective Date for Appellate Purposes......................
16
IV. Questions Presented on Appeal - Did the Court Err
16
18
V.
Summary of Argument...............................................
19
VI. Statement of Facts......................................................
CONCLUSION
APPENDIX
App. 1. MARY STRONG’S QUALIFIED WRITTEN REQUEST 3/29/15
App. 2. MEMORANDUM RE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT 8/17/17
6

App. 3.
App. 4.
App. 5
App. 6.
App. 7.
App. 8.

DOCUMENTED REFUSAL OF $197,377.00 MORTGAGE
PAYMENTS
MARY STRONG’S OBJECTION TO PLAINTIFFS
MOTION FOR SUMMARY JUDGMENT 2/15/19
GENERAL JUDGMENT OF FORECLOSURE 3/4/19
WRIT OF EXECUTION IN FORECLOSURE 3/26/19
$333,228.63 “REDEMPTION” PAID TO DESCHUTES
COUNTY SHERIFF 9/3/19
OREGON SUPREME COURT ORDER DENYING REVIEW
4/23/20
v.
TABLE OF AUTHORITIES
Page

CASES
Brandrup V. Recontrust Company Bac Lp 2006 2CB

page 10

Reference the following cases citing points of law regarding
mortgagesecuritization fraud as applies to this present case• Deutsche Bank National Trust Company et al v. Scott J. Heinrich;
• Glaski v. Bank of America, 218 Cal. App. 4th 107;
• Hooker v. Northwest Trustee Services Inc;
• Bank Of America, et al; McCoy, 2011 WL 477820, at *3;
• Yvanova v. New Century Mortgage Corp
Statutes
ORS 92.465 re Fraud and deceit states in part “No person shall,
inconnection with the offer, sale or lease of any lot, parcel or interest
in a real estate subdivision or series partition, directly or indirectly:”
and “Engage in any act, practice or course of business which operates
7

or would operate as a fraud or deception upon any person!”
.............................................................................................................. pages 4, 8
The Oregon Trust Deed Act requires the recording of all assignments by
the beneficiary, and Oregon's recording requirement provides that the
trust deed or mortgage follows the note
pages 6, 11
ORS 86.735(l) requiring the recording all the intervening assignments,
was intentionally ignored
page 11
Regulations
ORS 79.02031 UCC 9~203 (Attachment and enforceability of security
interest - cannot hypothecate)
page 9
UCC 3-420 CONVERSION OF INSTRUMENT........................
page 9
UCC 7~50l(5) Form of Negotiation and Requirements of Due
Negotiation.........................................................................................
page 9
UCC 9-315‘Secured party’s rights on disposition of collateral & in
pagelO
proceeds.....................
.page 9
UCC 9-109 (SCOPE)

8

1
PETITION FOR A WRIT OF CERTIORARI
Mary Strong petitions for a writ of certiorari to review the judgment of
the Oregon Supreme Court in this case.

OPINIONS BELOW
• Included here as App. 2. the MEMORANDUM dated August 17, 2017
re United States Court of Appeals For The Ninth Circuit No. 1635862 (D.C. Nos. 6:i6-cv-01498-MC and 6:i6-cv01499-MC, VACATE
AND REMAND states• “The district court dismissed Strong’s lack of standing to
foreclose, quiet title, slander of title, and related declaratory
relief claims after finding that Strong could not bring a
cognizable claim based on her loan’s securitization. However,
the district court did not expressly consider plaintiffs
allegation that Mortgage Electronic Registration Systems, Inc.
(“MERS”) could not act on its own authority as the beneficiary
under the deed of trust. See Brandrup v. ReconTrust Co., N.A.,
303 P.3d 301, 304, 309-12 (Or. 2013) (enbanc) (“For the
purposes of [the Oregon Trust Deed Act]... an entity like
MERS, which is not a lender, may not be a trust deed’s
‘beneficiary,’ unless it is a lender’s successor in interest.”); see
also Niday v. GMACMortg., LLC, 302 P.3d 444, 453 (Or. 2013)
(determining that summary judgment was improper where
MERS was designated as “nominee” in the deed of trust but
there was no additional evidence in the record of an agency
relationship between MERS and the original lender). We vacate
the judgment as to Strong’s “lack of standing to foreclose,” quiet
title, slander of title, and related declaratory relief claims and
remand for further proceedings in light of Brandrup. Case: 169

35862, 08/17/2017, ID: 10548647, DktEntry: 31-1, Page 2 & 3.
• MARY STRONG’S OBJECTION TO PLAINTIFFS MOTION FOR
SUMMARY JUDGMENT dated 2/15/19, Deschutes County Circuit
Court Case No. 16CV32768 is included here as App. 4.
• The GENERAL JUDGMENT OF FORECLOSURE, Deschutes
County Circuit Court Case No. 16CV32768 dated March 4, 2019 is
included here at App. 5.
• The WRIT OF EXECUTION IN FORECLOSURE, dated March 26,
2019, Deschutes County Circuit Court Case No. 16CV32768 is
included here as App. 6.
• The ORDER DENYING REVIEW dated April 23, 2020, Supreme
Court of Oregon Court of Appeals # A170560 and S067444 is
included here at App. 8.

JURISDICTION
The Supreme Court of Oregon entered an ORDER DENYING REVIEW
dated April 23, 2020 re # A170560 and S067444, included here at App.
8. Petition for review of the decision of the Court of Appeals on appeal
from a judgment of the Circuit Court for Deschutes County, Honorable
A. Michael Adler, Judge. Filed: January 29, 2020 affirmed without
opinion before Lagesen, Presiding Judge, and Egan, Chief Judge, and
Powers, Judge.

STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED
This case does not involve interpretation of statutory or constitutional
provisions

10

INTRODUCTION AND STATEMENT OF THE CASE
This is a foreclosure action against pro se Appellant Mary Strong by an
alleged Lehman Brothers “assignee”, U.S. BANK TRUST, N.A., AS
TRUSTEE FOR LSF9 MASTER PARTICIPATION TRUST. The
Deschutes County Circuit Court, Case No. 16CV32768 granted and
entered Plaintiffs General Judgment of Foreclosure on March 4, 2019.
Appellant-Defendant Mary Strong seeks reversal of the General
Judgment of Foreclosure entered March 4, 2019, financial damages,
and that Plaintiff U.S. BANK TRUST, N.A., AS TRUSTEE FOR LSF9
MASTER PARTICIPATION TRUST has not and cannot demonstrate
legal chain of title, does not possess legal standing, as required by law,
nor any rights whatsoever to the subject property located at 2559 NW
Monterey Pines Drive, Bend, Oregon. See ORS 92.465 re Fraud and
deceit, and Brandrup v. Recontrust Company Bac Lp 2006 2CB.
REASONS FOR GRANTING THE PETITION
The nature of the judgment is the dismissal, refusal and failure by
the Deschutes County Circuit Court, The Oregon Court of Appeals, and
the Oregon Supreme Court to accept Mary Strong’s documented
evidence of lack of standing and legal chain of title, slander of title,
violation of RICO laws, and declaratory judgment and quiet title claims
as to the unlawful multiple “assignments”, “transfers” and alleged and
undocumented “sales” of the Mortgage Note and Deed of Trust, without
li

evidence of legal tender or payment as REQUIRED BY LAW, and
without evidence of possession of the original Note and Mortgage Deed,
as required by law for 2559 NW Monterey Pines Drive, Bend, Oregon,
purchased by Mary Strong in 2003 with a conforming, 30-year mortgage
loan.
The following elements are required according to law:
1. A holder must possess the original note.
2. Transfer of possession must be “authenticated by an
affidavit or certification based upon personal knowledge.”
3. A party relying upon power of attorney or other
document must produce the authenticated original of
that document.
4. Using the words “as attorney in fact” means nothing unless
the party is able to produce a witness who, in their own
personal knowledge, knows and states that the POA is in
writing and has not been revoked.
5. That witness must be able to lay the factual foundation
and authentication for introduction of the Power of
Attorney or any other such document.
6. Without such foundation and authentication, any
testimony or documents proffered by virtue of the POA
cannot be admitted into evidence and for purposes of
the case then, such statements or documents do not
exist.
12

7. A party who claims a legal relationship with another
party and who relies upon it for proffering evidence
must provide evidence of the legal relationship.
8. A Power of Attorney must be in writing, duly signed and
acknowledged as set forth in state statutes. Oral Powers of
Attorney cannot be used to circumvent the requirement
that interests in real property (including mortgages) must
be in writing.
9. A party seeking to enforce a note must be able to
establish, though competent evidence, the location and the
previous locations of the note in order to
10. establish possession and the right to enforce, respectively.
11. Certifications must be based upon personal
knowledge and not general familiarity.
12. If testimony is offered based upon a “review” of records,
the records must be present, or the witness must identify
those records and how the witness acquired personal
knowledge of their content.
13. Assignments of mortgage must be authenticated by a
14. person who has personal knowledge of the assignment
(and the circumstances in which the assignment occurred).
15. Otherwise the assignment is hearsay and must be
excluded from evidence unless otherwise admitted for
different reasons. Hearsay statements in assignments
cannot be admitted into evidence and for purposes of the
13

case then, such statements do not exist.
16. The fact that an assignment or other document exists
as an original or a copy does not mean that what is
written on it can be admitted into evidence.
17. A document signed by an agent or “nominee” like MERS
after the demise of the principal is void because the power
of attorney expires upon expiration of the principal. If the
originator no longer exists, MERS is not authorized to act
on behalf of the originator.
These elements of proof of standing, required by law, have not
and never have been met by Plaintiffs US Bank Trust, N.A. et al in
this present matter.
STATEMENT OF THE CASE
Nature of The Action and Relief Sought
Nature of The Judgment
The nature of the judgment is the dismissal, refusal and failure by
the Deschutes County Circuit Court, Oregon Court of Appeals and
Oregon Supreme Court to accept Mary Strong’s documented evidence of
lack of standing and legal chain of title, slander of title, violation of
RICO laws, and declaratory judgment and quiet title claims as to the
unlawful multiple “assignments”, “transfers” and alleged and
undocumented “sales” of the Mortgage Note and Deed of Trust, without
evidence of legal tender or payment as REQUIRED BY LAW, and
14

without evidence of possession of the original Note and Mortgage Deed,
as required by law for 2559 NW Monterey Pines Drive, Bend, Oregon,
purchased by Mary Strong in 2003 with a conforming, 30-year mortgage
loan.
Regarding the subject property at 2559 NW Monterey Pines
Drive, Bend, Oregon, Mary Strong filed a lawsuit against Lehman
Brothers et al, the alleged and documented “originator” of the
Mortgage Note and Deed of Trust for the subject property at 2559
NW Monterey Pines Drive, Bend, Oregon, and the alleged mortgage
“assignor”, Case No. 6-16-cv-Q1498-MC (lead case) and Case No.
6'16-cw01499-MC (trailing case) re Mary Strong. Plaintiff v.
Lehman Brothers Bank FSB, et al.

This action was filed prior to

any supportable claim to the subject property by alleged “assignee”
U.S. BANK TRUST, N.A. AS TRUSTEE FOR LSF9 MASTER
PARTICIPATION TRUST et al. In this prior and related Case No.
6Q6-cv-01498-MC filed by Mary Strong as Plaintiff, Mary Strong
was denied and prevented from presentation and documentation of
evidence “on the record”, was denied a jury trial, and Mary Strong’s
case was summarily dismissed by the District Court Judge in
Eugene, Oregon without any supportable basis in law.
Basis of Appellate Jurisdiction
This Deschutes County Circuit Court No. 16CV32768 appellate
jurisdiction is based on ORS 19.240, ORS 19.250, ORS 19.255, and ORS
19.270
15

Effective Date for Appellate Purposes
Summary Judgment of Foreclosure, Deschutes County Circuit
Court Case No. 16CV32768 was entered March 4, 2019. The Notice of
Appeal and Opening Brief in this case was initially filed by Mary Strong
and docketed on March 26, 2019 and documented by the Oregon
Judicial Department “File & Serve” website, Envelope ID 4364120, and
was served by mail with tracking and proof of delivery on attorney for
respondent Jeremy Clifford, McCarthy & Holthus LLP, 920 W 3rd
Avenue, 1st Floor, Portland, Oregon. The 2nd Amended Notice of Appeal
was filed August 23, 2019 by Mary Strong by USPS with tracking and
proof of delivery, and was served by mail on attorney for respondent
Jeremy Clifford, McCarthy & Holthus LLP, 920 W 3rd Avenue, 1st Floor,
Portland, Oregon August 23, 2019 also with tracking and proof of
delivery.
Questions Presented on Appeal - Did The Trial Court Err
a) Fundamentally ruling that Plaintiffs) can fabricate, forge and for
all intents and purposes “steal” a mortgage “Note” and “Deed of
Trust” with no evidence of payment or possession of the original
mortgage Note and Deed of Trust, and still be entitled to foreclose.
The answer is no.
b) Failure and refusal to acknowledge, accept, permit, record and
document testimony and evidence presented by Mary Strong and
witnesses for Mary Strong of the cumulative rejection of over
$197,000.00 in mortgage payments made by Mary Strong (see
16

APP. 3 included here), and that US Bank Trust et al does not
possess the original Note, nor does US Bank Trust, N.A. et al have
evidence of any amount paid for the Mortgage Note and Deed of
trust or legal standing whatsoever regarding the subject property
at 2559 NW Monterey Pines Drive, Bend, Oregon, as required bv
law.
c) Failure to recognize, acknowledge, document and record for the
record the ongoing illegal chain of fraudulent, “robo-signed” and
forged “assignments” of the subject Mortgage Note prior to and
including the alleged “assignment” to U.S. Bank Trust, N.A. et al
for the property at 2559 NW Monterey Pines Drive, Bend, Oregon
and documented by Mary Strong in this matter.
d) Failing to recognize and properly rule that Plaintiff and “assignee”
US Bank Trust, N.A., et al, their predecessors, “assignors” and
related parties are in violation of the Oregon Trust Deed Act
which, among other elements, requires demonstration of the
possession of the original mortgage note, and demonstration of
evidence of payment for that note.
e) Failure and refusal of the Deschutes County Circuit Court to
accept and admit into evidence the forensic examination and proof
that Plaintiffs U.S. Bank Trust et al do not have possession of the
original Mortgage Note, with legal (not fraudulent “robo_signed”)
allonges demonstrating unbroken and legal chain of title, and
documented evidence of payment by U.S. Bank Trust, N.A., et al.
17

for the Mortgage Note and Deed of Trust for the property at 2559
NW Monterey Pines Drive, Bend, Oregon as required bv law.
Summary nf Argument,

Plaintiffs) US Bank Trust, N.A. et al have not and cannot
demonstrate clear and legal chain of title granting any rights
whatsoever to the subject property at 2559 NW Monterey Pines Drive,
Bend, Oregon.
I, Mary Strong, have suffered ongoing and extreme damage
following my “Making Home Affordable HAMP” application for
modification of the 3% adjustable interest rate to a then-current market
fixed rate of interest, including financial damages exceeding
$150,000.00 beyond the balance due on my mortgage plus legal, court
costs, and over $2,500.00 expense for a motel room following forced
eviction from my property on August 27, 2019 without prior notice with
legal service of process by the Deschutes County Sheriffs Office,
barring access to and constructive use of my (Mary Strong’s) property,
my furnishings and my personal possessions, and thereby providing
access to my (Mary Strong’s) personal property and possessions by
persons unknown to Mary Strong by virtue of the lock changes
conducted on the subject property upon my (Mary Strong’s) forced
eviction.

18

Statement of Facts
• I, Mary Strong, was never given legal notice in any form of the
"Sheriffs Auction" of my property at 2559 NW Monterey Pines Drive,
Bend.
• I, Mary Strong, was never served with any legally filed and stamped
notice of any "eviction" order issued by the Deschutes County Court,
Case #16CV32768, but was presented, with no advance notice, an
nnfiled and unstamped document by the Deschutes County Sheriff
while forcibly removing me from my property.
• I, Mary Strong, without any advance notice or service of process, was
given 20 minutes to gather belongings before being forcibly removed
from my property August 27, 2019 by three Deschutes County Sheriff
officers.
• While I, Mary Strong, was gathering some personal belongings I,
Mary Strong, was repeatedly and aggressively lectured and
threatened with arrest and jail by one of the three Deschutes County
Sheriff officers who forcibly removed me from my property on August
27, 2019.
• The Deschutes County Circuit Court issued a “summary judgement”
and cancelled the jury trial scheduled for February 7, 2019 in this
matter, with no opportunity for Mary Strong to present evidence and
expert witness testimony demonstrating the securitization fraud
conducted by Plaintiff US Bank Trust, N.A., et al, and any and all
“transfer” parties from whom Plaintiffs US Bank Trust, N.A. claim
19

to have obtained rights and/or ownership in any form or manner to
the mortgage note and deed of trust for the subject property located
at 2559 NW Monterey Pines Drive, Bend, Oregon.
• Following the 2008/2008 economic “crash” the notorious HAMP
program, was the ONLYvehicle available for Mary Strong to
refinance a 3.6% 30-year adjustable interest rate to the current
market fixed rate following a 50% drop in all mortgage interest
rates. A homeowner could no longer apply to their originating lender
to refinance a mortgage loan, as that lender, nor any other single
lender or party, legally owned the loan and Note, as it was, without
the homeowner’s knowledge or permission divided into multiple bits
and pieces called Collateralized Mortgage Obligations and Credit
Default Swaps and “transferred”, “sold” and “assigned” with
fraudulent, forged signatures, and no evidence of payment by
“assignors” to “assignees”. The notorious Federal Fannie Mae
Making Home Affordable HAMP program required the homeowner
to stop making payments in order to apply for and be considered for
refinance and modification of a mortgage loan rate of interest.
• Mary Strong was denied the HAMP program refinance of her
conforming interest rate to convert the subject mortgage to a fixed
rate of interest following the long, delayed, protracted HAMP
modification process requiring repeated/duplicate submissions of
requested documents by Mary Strong.
• Following the refusal and denial of Mary Strong’s Fannie Mae
20

Making Home Affordable HAMP application for interest rate
modification various mortgage “servicers” refused and rejected
$197,377.00 cumulative mortgage payments made by Mary Strong.
See APP.3 attached here.
Plaintiff US Bank Trust, N.A., et al has not and cannot produce
the.original mortgage and Note showing legal transfer and assignment
of the mortgage note on 2559 NW Monterey Pines Drive, Bend, Oregon
as required by law. Plaintiffs US Bank Trust, N.A. have not and cannot
produce evidence of payment, in any amount or form, for the subject
mortgage and Note relating to the property at 2559 NW Monterey Pines
Drive, Bend, Oregon, as required by law.
See ORS 92.465 re fraud and deceit.
The property 2559 NW Monterey Pines Drive, Bend, Oregon is the
subject of a lawsuit previously filed by Mary Strong, Case No. 6-16’Cv
01498-MC (Lead Case) Case No. 6U6-cv-01499-MC (Trailing Case)
MARY STRONG. PLAINTIFF v. LEHMAN BROTHERS BANK FSB.
NATIONSTAR HOME LOANS. FEDERAL HOME LOAN CORP AS
TRUSTEE FOR SECURITIZED TRUST FREDDIE MAC
MULTICLASS CERTIFICATES. SERIES 2998. FREDDIE MAC.
AURORA COMMERCIAL CORP.. ELECTRONIC REGISTRATION
SYSTEM. AKA “MERS”. AND DOES 1 THROUGH 100. INCLUSIVE.
DEFENDANTS.
In this related case I, Mary Strong document ongoing attempts at
communication with named Defendants in that matter (Lehman
21

Brothers, Nationstar et al), including the repetitive refusal of
payments made by Mary Strong to Nationstar Home Loans and Caliber
Home Loans on the mortgage for the property at 2559 NW Monterey
Pines Drive, Bend, Oregon through April 18, 2019.
I, Mary Strong, ask: what LAWFUL motive exists for the refusal of
$197,377.04 in payments made and documented by Mary Strong for
this mortgage debt following the denial of Mary Strong’s HAMP
application to change the mortgage interest to a fixed rate? The
answer: THERE IS NO LAWFUL MOTIVE!
Attached here as APP. 1 and previously presented in related
Oregon Court of Appeals Case No. A170560 is Maiy Strong’s Qualified
Written Request dated March 29, 2015 and submitted to Caliber Home
Loans, Inc. There has never been any coherent response to my (Mary
Strong’s) numerous requests for explanation of billing disparities
documented in this Qualified Written Request regarding the subject
property 2559 NW Monterey Pines Drive, Bend, Oregon. There is no
legal defense for these actions.
TABLE OF AUTHORITIES
FRCP Rule 26 “requires the Plaintiff to initiate a conference
between the parties to plan the discovery process”. In the present
matter Plaintiffs US Bank Trust, NA made no attempt to confer with
Mary Strong. I, Mary Strong had no knowledge of, contract with, or
communication in any form or manner with Plaintiffs US Bank Trust,
NA et all prior to service of this Complaint and Summons on August
22

12, 2018 by US Bank Trust, NA, nor any subsequent communication
from Plaintiffs US Bank Trust, NA.
Under 2015 QRS 79.02031 UCC 9-203 ATTACHMENT AND
ENFORCEABILITY OF SECURITY INTEREST and UCC 9109
SCOPE, holder in due course cannot hypothecate, meaning to
pledge as security without delivery of title or possession, real
property.
Under UCC 3-420 CONVERSION OF INSTRUMENT an action
for conversion of an instrument may not be brought by (i) the issuer
or acceptor of the instrument or (ii) a payee or indorsee who did not
receive delivery of the instrument either directly or through delivery
to an agent or a co-payee.”. There must be proof of delivery of tangible
instrument.
This has not been documented by Plaintiff US Bank Trust, N.A
et al in this matter.
Under UCC 7-501(5) FORM OF NEGOTIATION AND
REQUIREMENTS OF DUE NEGOTIATION a document is duly
negotiated if it is negotiated in the manner stated in this subsection
to a holder that purchases it in good faith, without notice of any
defense against or claim to it on the part of any person, and for value,
and (c) Indorsement of a nonnegotiable document of title neither
makes it negotiable nor adds to the transferee's rights. These
requirements regarding Form of Negotiation and Due Negotiation
23

were not met.
Under UCC 9 - 315: SECURED PARTY’S RIGHTS ON
DISPOSITION
OF COLLATERAL AND IN PROCEEDS. MERS cannot transfer
beneficial rights to debt. This requirement regarding party’s rights
on disposition of collateral and in proceeds were and are not met.
In the Supreme Court of Oregon re Bandrup v. Recontrust et al
see the following excerpts regarding the definition and meaning of the
word “beneficiary”, which “is determined by statute... and cannot be
altered by the party’s agreement”
o

On page 16'“Indeed, we find plaintiffs (Bandrup) reading of the
definition to be more compelling, on a purely textual level, than
defendants'. If defendant's reading were correct, then anyone -even a person with no connection to or interest in the
transaction at all - could be designated in the agreement. If the
legislature had intended "beneficiary" to have the circular
meaning that defendants suggest -- that "beneficiary" means
whomever the trust deed names as the "beneficiary" it would
have had no reason to include any description of the
beneficiary's functional role in the trust arrangement. The fact
that the statute does include such a description ("the person for
whose benefit the trust deed is given") strongly suggests that
the legislature intended to define "beneficiaries" by their
functional role, not their designation. Stated differently, by
including such a functional_de scription, it is apparent that the
24

legislature intended that the beneficiary of the trust deed be
the person to whom the obligation that the trust deed secures is
owed.”
o

On paffe 17: “Defendants assert that the emphasized text shows
that the legislature understood that the "beneficiary" need not
be the lender or the lender’s successor in interest. We do not
agree that the statutory text necessarily or even probably bears such a construction”

o

On Page 19 •“ the premise is implicit -- the core of defendants'
"freedom of contract" argument appears to be that, although
MERS has no right to repayment of the notes in these cases, it
nevertheless may be designated by contract as the beneficiary
for other functions, in particular those functions relating to the
control of the foreclosure process. We disagree. The resolution
of this question does not hinge on the parties' intent; rather, it
depends on legislative intent. That is, the OTDA authorizes
nonjudicial foreclosure only when certain statutory
requirements are met. In these circumstances, the meaning of
"beneficiary," as used in ORS 86.735(1), is determined by
statute, and that meaning is incorporated into, and cannot be
altered by, the party's agreement.”
In fact, a mortgage note is not a negotiable instrument. If a

“transferor” purports to transfer less than the entire instrument,
negotiation of the instrument does not occur. When a servicer comes to
25

court acting on behalf of any owner, they have necessarily been
transferred less than the entire instrument. They take then no rights
of a holder, and whatever rights they may have must be demonstrated
and proven.
The following elements are required according to law• A holder must possess the original note.
• Transfer of possession must be “authenticated by an affidavit
or certification based upon personal knowledge.”
• A party relying upon power of attorney or other document
must produce the authenticated original of that document.
I

• Using the words “as attorney in fact” means nothing unless the
party is able to produce a witness who, in their own personal
knowledge, knows and states that the POA is in writing and
has not been revoked.
• That witness must be able to lay the factual foundation and
authentication for introduction of the Power of Attorney or
any other such document.
• Without

such

foundation

and

authentication,

any

testimony or documents proffered by virtue of the POA
cannot be admitted into evidence and for purposes of the
case then, such statements or documents do not exist.
• A party who claims a legal relationship with another party
and who relies upon it for proffering evidence must provide
evidence of the legal relationship.
26

• A Power of Attorney must be in writing, duly signed and
acknowledged as set forth in state statutes. Oral Powers of
Attorney cannot be used to circumvent the requirement that
interests in real property (including mortgages) must be in
writing.
• A party seeking to enforce a note must be able to establish,
though competent evidence, the location and the previous
locations of the note in order to establish possession and the
right to enforce, respectively.
• A party seeking to enforce a note must be able to establish,
though competent evidence, the location and the previous
locations of the note in order to establish possession and the
right to enforce, respectively.
• Certifications must be based upon personal knowledge
and not general familiarity.
• If testimony is offered based upon a “review” of records, the
records must be present, or the witness must identify those
records and how the witness acquired personal knowledge of
their content.
• Assignments of mortgage must be authenticated by a person
who has personal knowledge of the assignment (and the
circumstances in which the assignment occurred). Otherwise
the assignment is hearsay and must be excluded from evidence
unless otherwise admitted for different reasons. Hearsay
27

statements in assignments cannot be admitted into evidence
and for purposes of the case then, such statements do not exist.
• The fact that an assignment or other document exists as an
original or a copy does not mean that what is written on it
can be admitted into evidence.
• A document signed by an agent or “nominee” like MERS after
the demise of the principal is void because the power of
attorney expires upon expiration of the principal. If the
originator no longer exists, MERS is not authorized to act on
behalf of the originator.
These elements of proof of standing, required by law, have not
and never have been met by Plaintiffs US Bank Trust, N.A. et al in
this present matter.
I, Mary Strong, declare^
• That all information provided in this Petition For Writ of
Certiorari is true, documented and supported with evidence
• That I, Mary Strong, was never given notice in any form of the
"Sheriffs Auction" of my property at 2559 NW Monterey Pines
Drive, Bend, Oregon
• That I, Mary Strong, was never served with notice of any
"eviction" order issued filed and stamped by the Deschutes County
Circuit Court (Case #16CV32768).
• That in spite of the legally filed and served Notice of Redemption
submitted to the Deschutes County Sheriffs Office by Mary
28

Strong, in the form and manner required by law, Mary Strong,
was, without notice, forcibly removed from the property at 2559
NW Monterey Pines Drive, Bend, Oregon by three Deschutes
County Sheriffs Officers on the morning of Tuesday, August 27,
2019 and allowed twenty minutes, with repetitive and aggressive
threats of arrest and placement in jail by the Sheriffs Deputy, to
gather belongings and vacate my (Mary Strong) home.
• The subject property at 2559 NW Monterey Pines, Bend, Oregon
was locked with new/changed locks and keys barring Mary
Strong’s access, giving access to Mary Strong’s personal property
and belongings within that property by parties unknown to Mary
Strong. Following repeated and ongoing refusal, rejection and
return of a total of $197,377.00 in sequential, increasing and
collective mortgage payments made by Mary Strong on this
property with a $181,000.00_mortgage balance (See APP. 3), the
required “Redemption” cost paid to the Deschutes County Sheriff s
Office was $333,435.75, including over $10,000.00 in “costs and
fees” charged by Plaintiff. See APP. 7 Deschutes County Sheriff s
Payment Receipt attached here.
CONCLUSION
For the foregoing reasons, the Court should grant a writ of
certiorari.
Respectfully submitted,
Mary Strong
29

